<html>
<title> - ASSESSING AMERICA'S NUCLEAR FUTURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  ASSESSING AMERICA'S NUCLEAR FUTURE--
                A REVIEW OF THE BLUE RIBBON COMMISSION'S
                   REPORT TO THE SECRETARY OF ENERGY

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      Wednesday, February 8, 2012

                               __________

                           Serial No. 112-60

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
72-656                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e186918ea18294929589848d91cf828e8ccf">[email&#160;protected]</a>  



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               MARCIA L. FUDGE, Ohio
RANDY NEUGEBAUER, Texas              BEN R. LUJAN, New Mexico
MICHAEL T. McCAUL, Texas             PAUL D. TONKO, New York
PAUL C. BROUN, Georgia               JERRY McNERNEY, California
SANDY ADAMS, Florida                 JOHN P. SARBANES, Maryland
BENJAMIN QUAYLE, Arizona             TERRI A. SEWELL, Alabama
CHARLES J. ``CHUCK'' FLEISCHMANN,    FREDERICA S. WILSON, Florida
    Tennessee                        HANSEN CLARKE, Michigan
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY


                            C O N T E N T S

                      Wednesday, February 8, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    15
    Written Statement............................................    16

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    17
    Written Statement............................................    18

                               Witnesses:

Lieutenant General Brent Scowcroft (Ret.), Co-Chairman, Blue 
  Ribbon Commission on America's Nuclear Future
    Oral Statement...............................................    19
    Written Statement............................................    24

The Honorable Richard Meserve, Commissioner, Blue Ribbon 
  Commission on America's Nuclear Future
    Oral Statement...............................................    22
    Written Statement............................................    24

The Honorable Pete Lyons, Assistant Secretary of Nuclear Energy, 
  Department of Energy
    Oral Statement...............................................    44
    Written Statement............................................    46

             Appendix I: Answers to Post-Hearing Questions

Lieutenant General Brent Scowcroft (Ret.), Co-Chairman, and The 
  Honorable Richard Meserve, Commissioner, Blue Ribbon Commission 
  on America's Nuclear Future....................................    72

The Honorable Pete Lyons, Assistant Secretary of Nuclear Energy, 
  Department of Energy...........................................    81


                  ASSESSING AMERICA'S NUCLEAR FUTURE--
                A REVIEW OF THE BLUE RIBBON COMMISSION'S
                   REPORT TO THE SECRETARY OF ENERGY

                              ----------                              


                      WEDNESDAY, FEBRUARY 8, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph M. Hall 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] T2656.001

[GRAPHIC] [TIFF OMITTED] T2656.002

[GRAPHIC] [TIFF OMITTED] T2656.003

[GRAPHIC] [TIFF OMITTED] T2656.004

[GRAPHIC] [TIFF OMITTED] T2656.005

[GRAPHIC] [TIFF OMITTED] T2656.006

[GRAPHIC] [TIFF OMITTED] T2656.007

[GRAPHIC] [TIFF OMITTED] T2656.008

[GRAPHIC] [TIFF OMITTED] T2656.009

[GRAPHIC] [TIFF OMITTED] T2656.010

[GRAPHIC] [TIFF OMITTED] T2656.011

[GRAPHIC] [TIFF OMITTED] T2656.012

[GRAPHIC] [TIFF OMITTED] T2656.013

    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order. And I say good morning and 
welcome to today's hearing entitled ``Assessing America's 
Nuclear Future--A Review of the Blue Ribbon Commission's Report 
to the Secretary of Energy.'' In front of you are packets 
containing the written testimony, biographies, and Truth-in-
Testimony disclosures for today's witnesses. I recognize myself 
for five minutes for an opening statement.
    I want to welcome everyone here today for today's hearing: 
``Assessing America's Nuclear Future--A Review of the Blue 
Ribbon Commission's Report to the Secretary of Energy.'' This 
morning, we will hear from two very distinguished members of 
the Blue Ribbon Commission on America's Nuclear Future, former 
National Security Advisor and Lieutenant General Brent 
Scowcroft; and former Chairman of the Nuclear Regulatory 
Commission, Richard Meserve. General Scowcroft and Chairman 
Meserve will provide an overview of the BRC's key 
recommendations to manage the Nation's nuclear waste.
    We also will hear from the Department of Energy's Assistant 
Secretary for Nuclear Energy, Pete Lyons, and hope that he will 
explain how the Administration plans to implement the 
Commission's recommendations and utilize its current nuclear 
energy research activities to find a permanent solution to the 
disposal of spent nuclear fuel.
    Thirty years ago, as a Democrat, I supported passage of the 
Nuclear Waste Policy Act of 1982. The law was intended to 
provide a solution to what America does with its spent fuel. 
And while our understanding of how to handle and dispose of 
spent fuel has increased dramatically in the decades since, 
nuclear waste is managed exactly as it was in 1982--through 
onsite storage at the more than 100 reactors around the 
country. I hope I don't have to wait another 30 years to see 
the government finally meet its legal obligations.
    Just as real progress was being made to construct a 
permanent repository at Yucca Mountain, President Obama decided 
to change course, just as he did with the space program, 
without specifying any proper path. Our space program is in 
total disarray and we know that, and apparently, Yucca Mountain 
has also received the same type of death penalty. In this case, 
he created a Blue Ribbon Commission to reevaluate how our 
Nation manages the back-end of the nuclear fuel cycle. In doing 
so, President Obama started the whole process over--excuse me--
throwing this country's nuclear waste management policy into 
disarray.
    When the Commission's draft report came out in July, I 
stated that it was time to stop playing politics and move 
forward with the Yucca Mountain project. I echo that sentiment 
again today. The President dismantled the Yucca Mountain 
program on which, to date, the American taxpayers have spent 
over $15 billion studying its scientific and technical 
viability to serve as a permanent geologic repository. 
Electricity consumers contribute approximately $750 million 
into the Nuclear Waste Fund annually, and that fund now has a 
balance of $27 billion. Recently, the Obama Administration 
revised the Federal Government's estimated liability for not 
accepting ownership of the radioactive waste to almost $21 
billion, an increase of $3.7 billion or 21 percent since 
creation of the Blue Ribbon Commission.
    Despite this massive investment and decades of study, the 
Secretary of Energy explicitly prohibited the Blue Ribbon 
Commission from even considering the suitability of Yucca 
Mountain to serve as a portion of America's nuclear waste 
management policy, effectively tying the Commission's hands and 
thumbing his nose again at Congress. Despite this objectionable 
action by the Administration, the Commission deserves credit 
for highlighting in its report that every expert panel has 
concluded that deep geologic disposal is the scientifically 
preferred approach. Yucca Mountain is exactly that.
    I am disappointed that the Commission was not able to even 
consider Yucca Mountain as part of the review, but I recognize 
that there are other recommendations by the Commission that 
could improve our nuclear waste management policy. I look 
forward to hearing about those.
    And I thank you again for being here.
    [The prepared statement of Mr. Hall follows:]

               Prepared Statement of Chairman Ralph Hall

    I want to welcome everyone here for today's hearing, ``Assessing 
America's Nuclear Future- A Review of the Blue Ribbon Commission's 
Report to the Secretary of Energy.''
    This morning we will hear from two distinguished members of the 
Blue Ribbon Commission on America's Nuclear Future: former National 
Security Advisor and Lieutenant General Brent Scowcroft, and former 
Chairman of the Nuclear Regulatory Commission, Richard Meserve. General 
Scowcroft and Chairman Meserve will provide an overview of the BRC's 
key recommendations to manage this nation's nuclear waste.
    We also will hear from the Department of Energy's Assistant 
Secretary for Nuclear Energy, Pete Lyons and hope that he will explain 
how the Administration plans to implement the Commission's 
recommendations and utilize its current nuclear energy research 
activities to find a permanent solution to the disposal of spent 
nuclear fuel.
    Thirty years ago, I supported passage of the Nuclear Waste Policy 
Act of 1982. The law was intended to provide a solution to what America 
does with its spent nuclear fuel. While our understanding of how to 
handle and dispose of spent fuel has increased dramatically in the 
decades since, nuclear waste is managed exactly as it was in 1982-
through onsite storage at the more than 100 reactors around the 
country. I hope I don't have to wait another thirty years to see the 
government finally meet its legal obligations.
    Just as real progress was being made to construct a permanent 
repository at Yucca Mountain, Nevada, President Obama decided to change 
course just as he did with the space program without specifying any 
future path. In this case, he created a Blue Ribbon Commission to re-
evaluate how our Nation manages the back end of the nuclear fuel cycle. 
In doing so, President Obama started the whole process over, throwing 
this country's nuclear waste management policy into disarray. When the 
Commission's draft report came out in July, I stated that it is time to 
stop playing politics and move forward with the Yucca Mountain project. 
I echo that sentiment today.
    The President dismantled the Yucca Mountain program on which, to 
date, American taxpayers have spent over $15 billion studying its 
scientific and technical viability to serve as a permanent geologic 
repository. Electricity consumers contribute approximately $750 million 
into the Nuclear Waste Fund annually, and that fund now has a balance 
of $27 billion. Recently, the Obama Administration revised the Federal 
government's estimated liability for not accepting ownership of 
radioactive waste to almost $21 billion, an increase of $3.7 billion or 
21 percent since creation of the Blue Ribbon Commission.
    Despite this massive investment and decades of study, the Secretary 
of Energy explicitly prohibited the Blue Ribbon Commission from even 
considering the suitability of Yucca Mountain to serve as a portion of 
America's nuclear waste management policy--effectively tying the 
Commission's hands and thumbing his nose at Congress. Despite this 
objectionable action by the Administration, the Commission deserves 
credit for highlighting in its report that every expert panel has 
concluded that deep geologic disposal is the scientifically preferred 
approach.

Yucca Mountain is exactly that.

I am disappointed that the Commission was not able to even consider 
Yucca Mountain as part of its review, but I recognize that there are 
other recommendations by the Commission that could improve nuclear 
waste management policy. I look forward to hearing about those.

Thank you again for being here. I now recognize Ranking Member Johnson 
for five minutes.

    Chairman Hall. I now recognize Ranking Member Johnson for 
five minutes.
    Ms. Johnson. Thank you very much, Chairman Hall, and good 
morning to all. I want to thank General Scowcroft, Dr. Meserve, 
and their fellow Commissioners for their service to this 
country. Given the diversity of backgrounds and expertise on 
the Commission, arriving at a consensus on something as 
potentially contentious as our nuclear future is not easy and 
your efforts should be considered in itself a model for how to 
move forward on this issue.
    To some degree, this reflects how the national conversation 
regarding nuclear energy has evolved over the last three years. 
Once a highly polarizing and partisan debate with ardent pro- 
and anti-nuclear camps firmly entrenched on either side, we can 
now have more nuanced policy discussions on everything from 
environmental impacts to financial issues. As a supporter of 
nuclear energy, I do find this encouraging. However, one thing 
has not changed. After five decades of commercial nuclear power 
in the United States, we still have not arrived at a 
comprehensive and equitable plan for permanent disposal of 
spent nuclear fuel. Yucca Mountain has never fit in that bill. 
It was a decision forced upon Nevada by Congress and it was 
only a partial solution at best. For this reason, I welcome the 
Blue Ribbon Commission's final report. It represents the 
strongest effort to date to move the United States beyond what 
is arguably one of the most embarrassing policy failures and 
one that has spanned both Democrat and Republican 
administrations.
    Today, we are at an impasse, a stalemate, and we should 
have seen this coming. In 1987, the process was short-circuited 
and ultimately it broke down. It has cost us 30 years of 
progress and billions of dollars. It was always controversial 
and unfair, and in the end, we are left frustrated and angry 
with an ever-growing waste stockpile and still without a 
solution. Regardless of one's personal feelings about Yucca's 
suitability as a repository, to spend our time and resources 
rehashing the same arguments reminds me of the often-quoted 
definition of insanity--doing the same thing over and over 
again expecting different results. I hope we will not go down 
that road today. It is time to move on and try a new approach, 
one that seeks to gain consensus from the start by educating 
the public, empowering stakeholder communities.
    I applaud the Commission for having this as their number 
one recommendation. They have called for a consent-based 
approach to identifying a permanent nuclear waste repository 
and they acknowledge that the decisions three decades ago 
regarding Yucca Mountain were not purely technical or 
scientific but political despite vocal and vibrant community 
opposition. What we need is consensus from the start. In the 
most powerful democracy in the world, it is the only way this 
will work. And as the most innovative economy in the world, we 
cannot forget the role that future technologies may play in 
both reducing our waste stockpile and ensuring the safety of 
future generations.
    The Blue Ribbon Commission has given us a framework for 
this new approach. Some recommendations can be implemented in 
the near term and some may take decades to fully realize. All 
of them deserve our attention and consideration today.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

Thank you, Chairman Hall, for calling this hearing today.

    I also want to thank General Scowcroft, Dr. Meserve, and their 
fellow Commissioners for their service to the country. Given the 
diversity of backgrounds and expertise on the Commission, arriving at a 
consensus on something as potentially contentious as our nuclear future 
is not easy, and your effort should be considered, in itself, a model 
for how to move forward on this issue.
    To some degree, this reflects how the national conversation 
regarding nuclear energy has evolved over the last few years. Once a 
highly polarizing and partisan debate--with ardent ``pro'' and ``anti'' 
nuclear camps firmly entrenched on either side--we can now have more 
nuanced policy discussions on everything from environmental impacts to 
financing issues. As a supporter of nuclear energy, I find this 
encouraging.
    However, one thing has not changed: after five decades of 
commercial nuclear power in the U.S., we still have not arrived at a 
comprehensive and equitable plan for permanent disposal of spent 
nuclear fuel. Yucca Mountain has never fit that bill. It was a decision 
forced upon Nevada by Congress, and it was only a partial solution at 
that.
    For this reason, I welcome the Blue Ribbon Commission's final 
report. It represents the strongest effort to date to move the U.S. 
beyond what is arguably one of our most embarrassing policy failures, 
and one that has spanned both Democratic and Republican 
Administrations. Today we are at an impasse, a stalemate, and we should 
have seen this coming.
    In 1987, the process was short-circuited, and ultimately, it broke 
down. It has cost us thirty years of progress and billions of dollars. 
It was always controversial and unfair, and in the end we are left 
frustrated and angry, with an ever-growing waste stockpile, and still 
without a solution.
    Regardless of one's personal feelings about Yucca's suitability as 
a repository, to spend our time and resources rehashing the same 
arguments reminds me of the often-quoted definition of ``insanity'': 
doing the same thing over and over again and expecting different 
results. I hope we will not go down that road again, today.
    It is time to move on and try a new approach, one that seeks to 
gain consensus from the start by educating the public and empowering 
stakeholder communities. I applaud the Commission for having this as 
their number one recommendation. They have called for a ``Consent-Based 
Approach'' to identifying a permanent nuclear waste repository and they 
acknowledged that the decisions three decades ago regarding Yucca 
Mountain were not purely technical or scientific, but political, 
despite vocal and vibrant community opposition. What we need is 
consensus from the start. In the most powerful democracy in the world, 
it is the only way this will work.
    And, as the most innovative economy in the world, we cannot forget 
the role that future technologies may play in both reducing our waste 
stockpile and ensuring the safety of future generations.
    The Blue Ribbon Commission has given us a framework for this new 
approach. Some recommendations can be implemented in the near term, and 
some may take decades to fully realize. All of them deserve our 
attention and consideration today.

Thank you, Mr. Chairman, and I yield back.

    Chairman Hall. All right. I thank you, Ms. Johnson. The 
gentlelady from Texas yields back.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    And I am honored to get to introduce the witnesses at this 
time. I want to introduce our panel of witnesses, and our first 
witness is retired General Brent Scowcroft, United States Air 
Force, and the Co-Chairman of the Blue Ribbon Commission on 
America's Nuclear Future. General Scowcroft currently is the 
President of the Scowcroft Group, an international business 
advisory firm. General Scowcroft served as the National 
Security Advisor to Presidents Gerald Ford and George H. W. 
Bush. President Bush presented the General with the Medal of 
Freedom Award in 1991, the Nation's highest civilian award.
    Our second witness is the Honorable Richard Meserve, 
Commissioner of the Blue Ribbon Commission on America's Nuclear 
Energy Future. Dr. Meserve is the President of the Carnegie 
Institution for Science. Before joining Carnegie, Dr. Meserve 
was Chairman of the Nuclear Regulatory Commission. He served as 
Chairman under both Presidents Clinton and George W. Bush and 
led the NRC in responding to the terrorism threat that came to 
the forefront after the 9/11 attacks. Before joining the NRC, 
Dr. Meserve was a partner in the Washington, D.C. law firm of 
Covington & Burling.
    Our final witness is the Honorable Pete Lyons, Assistant 
Secretary of Nuclear Energy for the Department of Energy. Dr. 
Lyons was confirmed by the Senate as Assistant Secretary for 
Nuclear Energy on April 14, 2011. Dr. Lyons previously served 
as Principal Deputy Assistant Secretary of the Office of 
Nuclear Energy. Dr. Lyons was a Commissioner of the Nuclear 
Regulatory Commission from 2005 to 2009. He also served as the 
Science Advisor for Senator Pete Domenici for the Senate Energy 
and Natural Resources Committee. Dr. Lyons worked at the Los 
Alamos National Laboratory for nearly 30 years.
    As our witnesses should know, spoken testimony is limited 
to five minutes after which the Members of the Committee will 
have five minutes each to ask questions.
    I am going to recognize General Scowcroft and Dr. Meserve 
together for ten minutes. You can divide that any way you want 
to. I am honored to recognize you at this time, sir.

        STATEMENT OF LIEUTENANT GENERAL BRENT SCOWCROFT
          (RET.), CO-CHAIRMAN, BLUE RIBBON COMMISSION
                  ON AMERICA'S NUCLEAR FUTURE

    General Scowcroft. Chairman Hall, Ranking Member Johnson, 
distinguished Members of the Committee, it is a great pleasure 
to appear before you today to discuss the final recommendations 
of the Blue Ribbon Commission on America's Nuclear Future. We 
appreciate the leadership this Committee has shown in 
confronting some of our Nation's biggest challenges, which 
certainly include the focus of this hearing: managing spent 
nuclear fuel and high-level nuclear waste in the United States. 
Thank you for allowing us to testify.
    Before we begin, I would like to pass along the deepest 
regrets of my Co-Chairman, former Congressman Hamilton, for not 
being here with us today. It has been an absolute delight 
working with him. Both Congressman Hamilton and I are thankful 
that Dr. Richard Meserve could stand in his place today. I 
would also like to thank the rest of the members of the 
Commission who worked so hard in creating our final report. 
Congressman Hamilton and I were delighted to work with such a 
talented and dedicated work group of fellow Commissioners. We 
are thankful for the expertise and insights they brought to our 
endeavors. Despite the variety of perspectives and interests in 
this issue of the members of the Commission, their 
professionalism led to our final report having unanimous 
approval, a fact which we believe speaks to the strength of our 
recommendations. We are also fortunate to have the services of 
an absolutely outstanding staff.
    As you are aware, Blue Ribbon Commission was formed by the 
Secretary of Energy at the direction of the President. Our 
charge was to conduct a comprehensive review of policies for 
managing the back-end of the nuclear fuel cycle and to 
recommend a new strategy. We came away from our review 
frustrated by decades of unmet commitments to the American 
people, yet confident that we can turn this record around.
    I will present the first half of our recommendations and 
Dr. Meserve will continue from there.
    Mr. Chairman, as we are all too aware, America's nuclear 
waste program is at an impasse. The Administration's decision 
to halt work on a repository at Yucca Mountain is but the 
latest indicator of a policy that has been trouble for decades 
and has now all but completely broken down. The approach laid 
out under the 1987 amendments to the Nuclear Waste Policy Act 
has simply not worked to produce a timely solution for dealing 
with the Nation's most hazardous radioactive materials. The 
United States has traveled nearly 25 years down the current 
path only to come to a point where continuing to rely on the 
same approach seems destined to bring further controversy, 
litigation, and delay.
    What we have found is that our Nation's failure to come to 
grips with the nuclear waste issue has already proved damaging 
and costly. It will be even more so the longer it continues, 
damaging the prospects for maintaining a potentially important 
energy supply option for the future, damaging to state/federal 
relations and public confidence in the Federal Government's 
competence, and damaging to America's standing in the world as 
a source of nuclear expertise and as a leader on global issues 
of nuclear safety, nonproliferation, and security.
    This failure is also costly to utility ratepayers, who 
continue to pay for a nuclear waste management solution that 
has yet to be delivered, to communities that have become 
unwilling hosts of long-term waste storage facilities, and to 
U.S. taxpayers who face billions in liabilities as a result of 
the failure to meet federal waste management commitments. The 
national interest demands that our nuclear waste program be 
fixed. Complacency with a failed nuclear waste management 
system is not an option. With a 65,000 metric ton inventory of 
spent nuclear fuels spread across the country and growing at a 
rate of over 2,000 metric tons a year, the status quo is not 
acceptable. The need for a new strategy is urgent.
    Mr. Chairman, the strategy we recommend in our final report 
has eight key elements. We are certain they are all necessary 
to establish a truly integrated national nuclear waste 
management system, to create the institutional leadership and 
wherewithal to get the job done, and to ensure that the United 
States remains at the forefront of technological developments 
and international responses to evolving safety--nuclear safety, 
nonproliferation, and security concerns. We will now describe 
those eight elements in more detail.
    The first is a new consent-based approach to siting future 
nuclear waste management facilities. Experience in the United 
States and in other nations suggest that any attempt to force a 
top-down federally mandated solution over the objections of a 
state or a community, far from being more efficient, will take 
longer, cost more, and have lower odds of ultimate success. By 
contrast, the approach we recommend is explicitly adaptive, 
staged, and consent-based. Based on activities in the United 
States and abroad--including most notably the siting of a 
disposal facility for transuranic radioactive waste, the Waste 
Isolation Pilot Plant (WIPP) in New Mexico, and recent positive 
outcomes in Spain, Finland, and Sweden--we believe this type of 
approach can provide the flexibility and sustain the public 
trust and confidence needed to see controversial facilities 
through to completion.
    The second element is a new organization dedicated solely 
to implementing the waste management program and empowered with 
the authority and resources to succeed. The overall record of 
DOE and of the Federal Government as a whole has not inspired 
confidence or trust in the Nation's nuclear waste management 
program. For this and other reasons, the Commission concludes 
that new institutional leadership is needed. Specifically, we 
believe a single-purpose congressionally chartered federal 
corporation is best suited to provide the stability, focus, and 
credibility needed to get the waste program back on track. For 
the new organization to succeed, a substantial degree of 
implementing authority and assured access to funds must be 
paired with a rigorous financial, technical, and regulatory 
oversight by Congress and the appropriate government agencies.
    The third element is access to the funds nuclear utility 
ratepayers are providing for the purpose of nuclear waste 
management. Nuclear utilities are assessed a fee on every 
kilowatt-hour of nuclear-generated electricity in exchange for 
the Federal Government's contractual commitment to begin 
accepting commercial-spent fuel beginning by January 31, 1998. 
Fee revenues go to the government's Nuclear Waste Fund, which 
was established for the sole purpose of covering the cost of 
disposing of civilian nuclear waste and ensuring that the waste 
program would not have to compete with other funding 
priorities. The fund does not work as it can. A series of 
Executive Branch and Congressional actions has made the annual 
fee revenues--approximately $750 million a year--and the 
unspent $27 billion balance in the funds effectively 
inaccessible to the waste program. Instead, the waste program 
is subject to precisely the budget constraints and 
uncertainties that the fund was created to avoid. This 
situation must be remedied immediately to allow the program to 
succeed.

          STATEMENT OF THE HONORABLE RICHARD MESERVE,
              COMMISSIONER, BLUE RIBBON COMMISSION
                  ON AMERICA'S NUCLEAR FUTURE

    Mr. Meserve. As General Scowcroft has indicated, we have 
eight major recommendations, and he has covered the first three 
and I will cover the remainder.
    Our fourth recommendation is that there be prompt efforts 
to develop one or more geologic disposal facilities. The 
conclusion that disposal is needed and that deep geologic 
disposal is the scientifically preferred approach has been 
reached by every expert panel that has looked at the issue and 
by every other country that is pursuing a nuclear waste 
management program. Moreover, all spent fuel reprocessing or 
recycle options either already available, or under active 
development at this time, still generate waste streams that 
require a permanent disposal solution. We simply note that 
regardless of what happens with Yucca Mountain, the U.S. 
inventory of spent nuclear fuel will soon exceed the amount 
that can be legally in place at this site until a second 
repository is in operation.
    So under current law, the United States will need to find a 
disposal site even if Yucca Mountain were to move forward. We 
believe the approach set out here in our recommendations 
provides the best strategy for assuring continued progress 
regardless of the fate of Yucca Mountain.
    Our fifth recommendation is to assure prompt efforts to 
develop one or more consolidated storage facilities. Developing 
consolidated storage capacity would allow the Federal 
Government to begin the orderly transfer of spent fuel from 
reactor sites to safe and secure centralized facilities 
independent of the schedule for operating a permanent 
repository. The arguments in favor of consolidated storage are 
strongest for stranded spent fuel from shutdown plant sites of 
which there are 10 across the country. Stranded fuel should be 
first in line for transfer to a consolidated storage facility 
so that these plant sites can be completely decommissioned and 
put to other beneficial uses. The availability of consolidated 
storage will also provide valuable flexibility in the nuclear 
waste management system that could achieve meaningful cost 
savings, provide backup storage in the event that spent fuel 
needs to be moved quickly and would provide an excellent 
platform for ongoing R&D to better understand how the storage 
systems currently in use at both commercial and DOE sites 
perform over time.
    Our sixth recommendation is that prompt efforts be 
undertaken to prepare for the eventual large-scale transport of 
spent nuclear fuel and high-level waste to consolidated storage 
and disposal facilities when such facilities become available. 
The current system of standards and regulations governing the 
transport of spent fuel and other nuclear materials has 
functioned well and the safety record for past shipments of 
these types of materials is excellent. That being said, greater 
transport demands for nuclear materials are likely to raise new 
public concerns. The Commission believes that state, tribal, 
and local officials should be extensively involved in 
transportation planning and should be given the resources 
necessary to discharge their roles and obligations in this 
arena. Historically, some programs have treated transportation 
planning as an afterthought. No successful programs have done 
so.
    Our seventh recommendation is to support advances in 
nuclear energy technology and workforce development. Advances 
in nuclear energy technology have the potential to deliver an 
array of benefits across a wide range of energy policy goals. 
The Commission believes these benefits--in light of the 
environmental and energy security challenges the United States 
and the world will confront--justify sustained public and 
private sector support for RD&D on both existing light-water 
reactor technology and advanced reactor and fuel-cycle 
technologies.
    The Commission also recommends expanded federal joint labor 
management and university-based support for advanced science, 
technology, engineering, and mathematics training. We recommend 
this to develop the skilled workforce needed to support an 
effective waste management program, as well as a viable 
domestic nuclear industry.
    Our eighth recommendation is to urge active U.S. leadership 
in international efforts to address safety, nonproliferation, 
and security concerns. As more nations consider pursuing 
nuclear energy or expanding their nuclear programs, U.S. 
leadership is urgently needed on issues of safety, 
nonproliferation, and security and counterterrorism. From the 
U.S. perspective, two points are particularly important. First, 
with so many players in the international nuclear technology 
and policy arena, the United States will increasingly have to 
lead by engagement and by example. Second, the United States 
cannot exercise effective leadership on issues related to the 
backend of the nuclear fuel cycle so long as our own program is 
in disarray. Effective domestic policies are needed to support 
America's international agenda.
    In conclusion, the problem of nuclear waste may be unique 
in the sense that there is wide agreement about the outlines of 
the solution. Simply put, we know what we have to do, we know 
we have to do it, and we even know how to do it. We believe the 
conditions for progress are arguably more promising than they 
have been in some time, but we will only know if we start, 
which is what we urge the Administration and the Congress to do 
without further delay.
    Thank you for having us here today. We ask that you include 
a full version of our testimony for the record and we look 
forward to your questions.
    [The prepared statement of General Scowcroft and Mr. 
Meserve follows:]

    Prepared Statement of Lieutenant General Brent Scowcroft (Ret.),
     Co-Chairman, and The Honorable Richard Meserve, Commissioner,
           Blue Ribbon Commission on America's Nuclear Future

[GRAPHIC] [TIFF OMITTED] T2656.014

[GRAPHIC] [TIFF OMITTED] T2656.015

[GRAPHIC] [TIFF OMITTED] T2656.016

[GRAPHIC] [TIFF OMITTED] T2656.017

[GRAPHIC] [TIFF OMITTED] T2656.018

[GRAPHIC] [TIFF OMITTED] T2656.019

[GRAPHIC] [TIFF OMITTED] T2656.020

[GRAPHIC] [TIFF OMITTED] T2656.021

[GRAPHIC] [TIFF OMITTED] T2656.022

[GRAPHIC] [TIFF OMITTED] T2656.023

[GRAPHIC] [TIFF OMITTED] T2656.024

[GRAPHIC] [TIFF OMITTED] T2656.025

[GRAPHIC] [TIFF OMITTED] T2656.026

[GRAPHIC] [TIFF OMITTED] T2656.027

[GRAPHIC] [TIFF OMITTED] T2656.028

[GRAPHIC] [TIFF OMITTED] T2656.029

[GRAPHIC] [TIFF OMITTED] T2656.030

[GRAPHIC] [TIFF OMITTED] T2656.031

[GRAPHIC] [TIFF OMITTED] T2656.032

[GRAPHIC] [TIFF OMITTED] T2656.033

    Chairman Hall. I thank you, sir, to both of you.
    And I now recognize Dr. Pete Lyons for five minutes to--or 
whatever it takes to present your testimony, sir.

 STATEMENT OF THE HONORABLE PETE LYONS, ASSISTANT SECRETARY OF 
              NUCLEAR ENERGY, DEPARTMENT OF ENERGY

    Mr. Lyons. Thank you. Chairman Hall, Ranking Member 
Johnson, and Members of the Committee, thank you for the 
opportunity to discuss the Blue Ribbon Commission's Report to 
the Secretary of Energy. The Administration commends the 
Commission for its work over the past two years. Their report 
will inform the Administration's work with Congress to define a 
responsible and achievable path forward to manage our Nation's 
used nuclear fuel and nuclear waste.
    The President, Secretary Chu, many Members of Congress have 
spoken out on the importance of nuclear power to our Nation's 
clean energy future. New nuclear power options with dramatic 
safety improvements are poised for deployment. Late last year, 
the passively safe Westinghouse AP1000 reactor received design 
certification from the Nuclear Regulatory Commission and the 
BRC, the Commission, endorsed the cost-shared NP 2010 program 
that had supported this design certification. The NRC vote on 
the first AP1000 construction and operating license is 
scheduled for tomorrow, and if approved, it will be our first 
license for new reactor construction in over three decades, 
creating thousands of new jobs. And with the support of 
Congress, we have started the cost-shared program to accelerate 
commercialization of small modular reactors, which may offer 
immense national benefits.
    But the United States must develop a sustainable used fuel 
management strategy to ensure that nuclear power continues to 
be utilized as a safe, reliable resource for our Nation's long-
term energy supply and security. In this context, Secretary Chu 
stated that the Commission's report ``is a critical step toward 
finding a sustainable approach to disposing used nuclear fuel 
and nuclear waste.'' The Commission's report highlights our 
Nation's own success story, the Department's Waste Isolation 
Pilot Plant, or WIPP. The WIPP experience has shown that a 
consent-based approach and a superb safety record can lead to 
the successful development and operation of a geologic 
repository for nuclear waste disposal that is very well 
supported by the state and local community.
    I have been a close observer of both the Yucca Mountain and 
WIPP programs. Through growing up in Nevada, working for years 
at the Nevada test site, directing programs at Los Alamos 
National Lab for both Yucca Mountain and WIPP, living in New 
Mexico, and working on Senate staff for eight years, I have 
seen the stark difference in success between a largely consent-
based and a non-consent-based program. Many near-term 
directions advocated by the Commission align very well with our 
ongoing programs. Starting in fiscal year 2011, we established 
the Used Nuclear Fuel Disposition Program to conduct R&D on 
storage, transportation, and disposal, and I was very pleased 
that the Commission positively assessed this program. In fiscal 
year 2012, this program will revisit the recommendations of the 
2006 National Academy Report on Transportation Issues and will 
prepare a report on that work.
    We will finalize policy and procedures for providing 
technical assistance and funds for training public safety 
officials. We will build upon previous DOE and industrial 
efforts to initiate the evaluation of designs for consolidated 
storage, and we will develop communication packages for use 
with potential host communities. We will also continue R&D to 
better understand potential degradation mechanisms involved in 
long-term storage through a university lab consortium led by 
Texas A&M. And we will continue research on geologic media 
through partnerships that gain overseas expertise in granite 
and clay, expand our own studies on salt, and initiate planning 
for deep borehole studies.
    The fiscal year 2012 appropriations report requested that 
the Department develop a strategy within six months. 
Interactions within the Administration and with Congress and 
stakeholders will be a part of this process. We thank the 
Commission for important contributions towards development of 
that strategy.
    I look forward to your questions and thank you, sir.
    [The prepared statement of Mr. Lyons follows:]

Prepared Statement of The Honorable Pete Lyons, Assistant Secretary of 
                  Nuclear Energy, Department of Energy

[GRAPHIC] [TIFF OMITTED] T2656.060

[GRAPHIC] [TIFF OMITTED] T2656.061

[GRAPHIC] [TIFF OMITTED] T2656.062

    Chairman Hall. And I thank you. I will begin with the 
questions at this time.
    The Blue Ribbon Commission Report really highlights--and 
then first, let me ask you all to thank Lee Hamilton. He is a 
man that I have had great regard for, enjoyed a long 
friendship, benefited from his advice and we would like very 
much to have had him here.
    I think we all agree that transparency is better and that 
is why I am concerned with the Chairman of the NRC has blocked 
the NRC staff from completing the scientific and technical 
review of Yucca Mountain's site suitability. General and Dr. 
Meserve, regardless of whether Yucca Mountain has a future--and 
I know you were prevented from considering that or spending 
very much time on that--I have always lived with the idea if I 
ignore the impossible and try to cooperate and improve the 
inevitable, that is kind of the position I feel like you all 
were put in. You have accepted as the leaders that you have 
always been and we are trying to receive something from the 
benefit of the study of important people like each of you.
    But to General and Chairman, whether Yucca Mountain has a 
future or not, don't you really believe that the safety review 
ought to be made public? Is there any reason why we don't do 
that?
    General Scowcroft. Well, Mr. Chairman, we didn't really 
focus on that part of it.
    Chairman Hall. Because you were told not to deal with 
Yucca?
    General Scowcroft. We are not a siting commission and we 
were told not to.
    Chairman Hall. Okay.
    General Scowcroft. But what I would just say is that our 
recommendations accept Yucca Mountain can continue as a part of 
a new process. We don't rule one way or another on Yucca 
Mountain of what should happen to it. And there is a need for 
more than one repository now anyway because the spent fuel 
buildup is such that it is close to the capacity of Yucca 
Mountain now. So we would need additional repositories in any 
case.
    Chairman Hall. Well, in any case, though, I don't see any 
reason to suppress the safety review and the information from 
the safety review.
    I will ask Dr. Lyons. President Obama is committed to 
making this Administration the most open and transparent in 
history. Is there any reason why this information should be 
withheld from the public and what might the contingent 
suppression of this technical information mean with respect to 
the scientific integrity goals, and guidelines that the 
President regularly touts that he has?
    Mr. Lyons. Well, Chairman Hall, I start with the point that 
details of the NRC's future course with regard to NRC are in 
litigation now and I think it is appropriate that we wait and 
understand what the legal opinions are going to be on that. But 
I would add that as a scientist, my goal is in finding a way 
forward on a path for used fuel in this country, and I believe 
that the Blue Ribbon Commission outlines a coherent overall 
path that, if followed, will lead to success.
    Chairman Hall. Would the release of the report have any 
value at all?
    Mr. Lyons. If that is directed at me, sir, since I don't 
know what is in the report, I really can't comment in detail.
    Chairman Hall. Okay. The Blue Ribbon Commission 
recommendations are centered around the assumption that with an 
adequate amount of incentives, a ``consent-based siting process 
is going to entice localities and states to serve as a host.'' 
What happens if there is simply no locality that agrees to host 
a repository or if the locality agrees and then changes its 
mind a couple of years later? And is that the process we have 
gone through for the past 30 years? Anybody that wants to 
answer it, it is--I would take an answer from----
    General Scowcroft. We recommend, as you point out, Mr. 
Chairman, a consent-based process. There is nothing magic about 
it and so we can't say that it will produce the right results, 
but our review of especially the WIPP facility in New Mexico, 
which has turned out to be a great success with enthusiasm for 
additional responsibilities in that regard and the recent 
process in Finland, in Sweden, and in Spain give us the hope 
that it would work here. Now, our system is even more 
complicated than most of those in that the federal, state, and 
local setup is uniquely hard to compromise, but we take great 
heart from those examples.
    Chairman Hall. I just--my time--I have 28 seconds that I 
have used that I am not entitled to. I am going to stay with 
the five minutes. But I am just wondering if we are going to be 
forced to come back here 30 years from now and start all over 
again. That is the thing that bothers me. And please don't be 
alarmed by the absence of all these chairs here on both sides 
because we are at a crucial time in Congress now and they have 
other things to meet and I think it is a shame that they don't 
get the benefit of seeing very valuable Americans as you three 
when you come here to give your testimony. But we do have your 
written testimony. It will be in the record. It will be there 
forever and ever and they can avail themselves of that.
    I yield back my time and I recognize Mrs. Johnson for her 
five minutes or 10 minutes or whatever she wants to take.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    As I have listened to the testimony, it appears that 
whatever happened with Yucca Mountain, the capacity is just 
about filled. This is my 20th year here and every year that I 
have been here, there has been a big controversy over Yucca 
Mountain until the last year or so. And so that within itself 
has done something to quiet the people near Yucca Mountain. So 
I think that because we are such a technological society now, 
it is going to take involvement of stakeholders wherever it is 
going to be placed. And I think that is what you are 
recommending. It is not top-down but bottom-up.
    Now, I live--my district has one, two, three--five 
interstates crossing it: 30, 35, 45, 20, and 635. The whole 
time this kept coming up in Congress, I got all kinds of 
questions about what move it was going to take, what it was 
going to do to the community. We probably did not do enough 
public information. And so whatever happens to Yucca Mountain, 
we have got to go forward. It is clear that we need to 
establish some repositories. And so I am pleased that your 
study does indicate that.
    And you have also indicated I think that it is New Mexico 
that has--where people really kind of came together and were 
pleased that they were chosen. Was the difference that the 
people were involved in making the decision or at least kept 
informed the whole time the decision was being made?
    General Scowcroft. It is my understanding that that was the 
case. I hasten to say, though, it still took 20 years for the 
WIPP thing to work out. But in a process--an iterative process 
back and forth, which is what we recommend again--the local 
communities, the state officials, and so on and the Federal 
Government came to a conclusion which has worked remarkably 
well.
    Ms. Johnson. Thank you very much.
    Dr. Lyons, what do you see as one of the--what do you think 
about these major eight recommendations and has the Department 
looked at them or attempted to educate or implement at all?
    Mr. Lyons. We are just initiating a process within the 
Administration to evaluate those eight recommendations. In 
addition, the appropriations for fiscal year 2012, the report 
language, requires a report back to Congress on the 
Administration's strategy. As that is developed over the next 6 
months, there certainly needs to be extensive discussion within 
the Administration but also involving Congress and other 
stakeholders because many of the recommendations from the 
Commission are going to require Congressional action. So it is 
going to have to be a coordinated effort over the next 6 months 
looking at this excellent set of recommendations to see exactly 
how selective ones of them can be translated into policy.
    Ms. Johnson. Thank you. Now, on this revenue, this 27 
billion in the fund is not accessible. What is the problem 
there?
    Mr. Lyons. Well, as the Commission outlines, there have 
been a number of changes in how that fund is treated in 
Congress and that fund is now subject to annual appropriations. 
The Commissioners may want to go into more detail but that is 
discussed in detail in the report.
    Ms. Johnson. Thank you. Did you want--maybe I should just 
go back and read the report in detail, but if you would like to 
comment, I would appreciate it.
    Mr. Meserve. Well, Mr.--Assistant Secretary Lyons has 
outlined the situation accurately. There is accumulated total 
that is in the waste fund of about $27 billion now, but it is 
effectively inaccessible in that in order--the way the 
accounting is done this money comes in every year, it is offset 
against the deficit, and then money to go out to be spent has 
to be appropriated in each year to DOE. And so you have a 
problem that the money, that corpus, which has now grown very 
large is just not available except through a burdensome 
appropriation process. And the appropriations have been less 
than the opprobrium has felt has needed over the years I should 
add.
    We do have some recommendations both short-term and long-
term as to how to address that question and that we proposed, 
for example, in the short-term that the money submit to the 
Treasury those amounts that would be--then be appropriated for 
use against the funds is something that in fact the Congress 
does with the NRC budget. And of course in the long term as 
this new entity be formed would be created, the funds should be 
made immediately available to them for their use.
    Ms. Johnson. Thank you very much. My time has expired.
    Chairman Hall. All right. We will alternate between the 
majority and the minority, and being fair, I will start with 
the majority. Ms. Biggert, I recognize you for five minutes.
    Mrs. Biggert. Thank you, Mr. Chairman, and thank you for 
holding this important hearing today.
    Fourteen years ago when I came to Congress, my first month 
here I received a notice that President Clinton had shut down--
or taken $20 million out of what was then the reprocessing 
cycle and that was before I could even pronounce metallurgical 
and I had to get that money back, which I did. Now, the 
recycling program was shut down, President Carter, and we have 
been so far behind other countries now in what we are doing, 
and I am really disappointed with the way that the recycling 
was treated in the final report. And I would quote, ``We do not 
believe that today's recycling technologies or new technology 
developments in the next three to four decades will change the 
underlying need for an integrated strategy that combines safe 
storage of SNF with expeditious progress toward siting and 
licensing and disposal facility or facilities.''
    My concern is that we have wasted so much time with really 
developing the recycling when talking about the sites, for 
example, Yucca Mountain, that would be filled with the nuclear 
waste that we have now. What a waste that is to allow--we put 
the cart before the horse. Why don't we have the development of 
the recycling so that we don't have as much waste? We don't--
the sites can be different. And instead, we want to just put it 
in--there is so much--and it is fuel still wasted by putting it 
into a permanent repository.
    And Dr. Lyons, could you tell me if you agree with this 
time estimate in the final report, the three, four decades that 
we are going to wait? And we have to develop the fast reactor 
and we put that aside really to have the recycling at its best. 
I was just--I went to Morris, Illinois, where there is a 
nuclear plant. Across the street is a reprocessing plant that 
was shut down in the '70s and it sits there. It is like a time 
warp. You go in--and of course they have removed most of the 
equipment there, but here it is, just this building with 
these--and it is used completely for storage, which is now 
filled. It has been filled since the '80s and it sits there. 
Sorry, I am getting off here, but could you talk to the decades 
that won't make any difference with the recycling and the 
underlying need?
    Mr. Lyons. I thank you for the question. We do have an 
extensive fuel cycle program that is looking at a wide range of 
options. It is looking at everything from the once-through 
cycle to the closed cycle that you describe. As we evaluate the 
different fuel cycles, we are considering many different 
parameters that need to go into such an evaluation. The 
facility you mentioned in Morris used technologies that I doubt 
would be found acceptable today from an environmental 
standpoint, from a nonproliferation standpoint, quite probably 
from a cost standpoint. But the national laboratories, 
including Argonne very heavily, are directly involved in the 
fuel cycle program as we work towards exploring alternatives 
and understanding what those may be.
    I think a key point which the Commission makes and it is 
certainly an important point in my program is that we can use 
dry cask storage to buy time to make the decision whether used 
fuel should be treated as you suggested as a resource or should 
be treated as a waste. Those are all elements of our program. 
It is time consuming but it is a logically developed program 
leading to solutions that we will eventually be bringing to 
Congress for decisions.
    Mrs. Biggert. And that timeline could be three, four 
decades?
    Mr. Lyons. It could be at least two or three decades as we 
evaluate different technologies, go through pilot studies. Yes, 
it could be that long. This would be an extremely important 
decision.
    Mrs. Biggert. And General Scowcroft, could you elaborate on 
your position on this?
    General Scowcroft. Yes, I would be happy to. There are two 
aspects to it. First of all, we enthusiastically support 
research and development both in reactor design and in 
recycling and reprocessing aspects. What we say is that at the 
current time, there is no recycling or reprocessing system 
which will eliminate the need for waste--to deal with waste. 
None of them do away with waste. They change the character of 
it in a variety of ways. But that was what--our focus is not we 
don't want to do recycling or anything. We agree that we should 
look for better ways to utilize fuel. We use maybe one percent 
of the energy value of the fuel we put in our reactor. That is 
a waste. But what we are saying now, nothing that exists at the 
present time will solve the problem of waste. All of them still 
create waste.
    Mrs. Biggert. Thank you. I yield back.
    Chairman Hall. The gentlelady yields back.
    I recognize the gentleman from California, Mr. McNerney, 
for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    I want to thank the witnesses for your service. This is a 
bit of a thankless task and it is important, so I am glad that 
you are all out there working on this.
    Mr. Lyons, do you have a favorite--and I know this is 
simplified; it depends on the nuclear reaction technology. But 
do you have a favorite nuclear storage disposal technology that 
you prefer?
    Mr. Lyons. As I indicated, sir, in my mind the dry cask 
storage gives us the opportunity to do additional research to 
reach the conclusion that you are asking me for. I think it is 
premature at this point to give you that answer.
    Mr. McNerney. Okay, thank you. Well I am going to sort of 
rehash Mrs. Biggert's question in a different form. Mr. Lyons, 
do you believe that nuclear waste has an intrinsic future value 
that would justify the cost of making nuclear waste retrievable 
or should it just be permanent disposal?
    Mr. Lyons. That is going to be a very important question 
that is debated as the Administration and Congressional 
strategy moves ahead. I don't know what the answer will be to 
that and that needs substantial debate. I can argue on both 
sides of that.
    Mr. McNerney. Thank you.
    General Scowcroft, could you recap for us the key issues 
that led to past failures and what would lead to responsible 
nuclear waste disposal policy today?
    General Scowcroft. Well, in sum I think the difference 
between what has been followed in the past and what we 
recommend is the past was a top-down and it ended up we tried 
to direct a solution to the problem on a particular site. What 
we are suggesting is a process that goes from the bottom up. We 
identify suitable areas and then work with local communities 
and states to develop a consent-based process, you know, 
providing for say--for example, research facilities which would 
go along with a storage site to enable an answer to the 
problems that Dr. Lyons suggested. These are the kinds of 
things which we believe and which in the past have worked in 
this country and overseas to develop people coming forward. And 
in Sweden they were bidding for the right to host a site. So 
that--so we are optimistic about that.
    Mr. McNerney. So to what degree was that sort of approach 
taken? Has that approach been taken at Yucca Mountain? Is it--I 
mean there is some of that that has taken place but clearly it 
is not enough.
    General Scowcroft. Well, there was some at Yucca Mountain 
but in the end the Congress decided that no other sites would 
be considered and Yucca Mountain was it. The local communities, 
the county communities surrounding Yucca Mountain are 
supportive.
    Mr. McNerney. Right.
    General Scowcroft. The State as a whole is not and that is 
where the deadlock came.
    Mr. McNerney. Has that well been poisoned enough that Yucca 
Mountain is basically not usable now or is there still enough 
political goodwill to move forward with that site?
    General Scowcroft. Well, I would just have to speak 
personally there, but my sense is that if our recommendations 
are implemented, that Yucca site can be a--the Yucca Mountain 
facility can be a part of this consent-based agreement.
    Mr. McNerney. Good.
    General Scowcroft. And if the communities concerned can 
agree, yes, it could be.
    Mr. McNerney. Thank you.
    Mr. Meserve, why should the government continue to invest 
in development of new nuclear technologies when it has been in 
the commercial arena for 50 years already?
    Mr. Meserve. Well, it is in fact the case that we have 
currently deployed plants that have been in existence for some 
time, but this is a technology that is a complicated technology 
in which there are opportunities still for advances that will 
enhance safety, will enhance efficiency, will enhance 
stability--sustainability of the system and so this is--we are 
not at the end of the road on this and these are hugely 
expensive technologically sophisticated matters in which 
involvement by the Federal Government has traditionally been 
very important and I believe that will remain so in the future.
    Mr. McNerney. Thank you.
    I yield.
    Chairman Hall. I thank the gentleman for staying within the 
five minutes.
    At this time, I recognize Mr. Fleischmann, the gentleman 
from Tennessee. And I want to thank you, Congressman, for my 
visit to Oak Ridge. That is the site of where the Manhattan 
Project was launched long before you were born. And some of us 
at that table and I remember that. And they had a computer 
simulation of a nuclear reactor at Oak Ridge there. That is a 
step in the right direction. I recognize you for five minutes 
and thank you for your service.
    Mr. Fleischmann. Yes, sir, and thank you, Mr. Chairman, for 
your visit. Appreciate that very much. And gentleman, thank you 
all for being here today.
    I am Chuck Fleischmann. I represent the third district of 
Tennessee and that has got all of Oak Ridge, ORNL, Y-12, and 
the great history that the Chairman alluded to and a great 
future. And I have enjoyed working with DOE.
    In regard to this issue, I want to thank you all for your 
commitment to the research and development, the SMRs. I think 
that is critically important to our future. I do think that 
nuclear is an important part of our all-of-the-above energy 
policy and I want to see that move forward.
    To touch on some of the issues that both my Republican and 
Democratic colleagues have touched on, though, I do have some 
questions about this reprocessing issue. General, I do 
understand that with all--as you have said, with all processes 
there is going to be some waste, but it appears to me that 
other countries have a vigorous reprocessing program already in 
place, and I would like to ask all three of you all if I may, 
why are there impediments? Why are we talking possibly a decade 
or two decades before we can make a decision? It is my 
understanding that over 90 percent of the fuel can be 
reprocessed. Where are the impediments, gentlemen?
    General Scowcroft. Well, Mr. Fleischmann, there are 
countries who reprocess. They do not reprocess to eliminate 
waste and certainly don't reprocess to save money. There are 
other objectives to reprocessing like to separate elements of 
the fuel cycle which can be dangerous in terms of 
nonproliferation and so I think we are focused on the waste but 
in the background is the whole issue of nonproliferation in 
which we feel the United States has to be a leader. We do 
believe that reprocessing has a future or we would not be 
pushing R&D for it, but what we really say is that at the 
present time, there is no kind of reprocessing which eliminates 
the need which we are designed to study that is permanent 
depository for some of the results.
    Mr. Fleischmann. Thank you.
    Mr. Meserve?
    Mr. Meserve. I might just add that as the General has 
indicated that you don't fundamentally change the waste 
problem. You still have waste you have to deal with. Regardless 
of whether you reprocess or not, you are going to need a 
disposal facility. What has fundamentally changed over the 
years is I think a lot of the initial interest in reprocessing 
and recycling was the belief that we had limited uranium 
supplies and that it was going to be necessary to recycle to 
extend the resource. That may prove true in the long-term, that 
there is value in being very conservative in our use of 
resources. But at the present time, most studies that have 
examined this have determined that the cost of doing the 
reprocessing is excessive as compared to just mining uranium 
and doing a once-through fuel cycle. It has turned out that 
there is a lot more uranium than people had known at the time 
the Morris facility was constructed, for example.
     And so that there is not the economic incentive to 
proceed, which I think is--there is nothing--there is no 
barrier today from a private company to come forward and go to 
the NRC and say they want to build a reprocessing facility. 
They can do it. There is no interest that I am aware of in 
doing that just because the economics don't justify it.
    Mr. Fleischmann. Thank you.
    Mr. Lyons?
    Mr. Lyons. I would agree with the comments made by my 
colleagues that certainly one needs to evaluate the 
nonproliferation and the environmental aspects as well as the 
economic. And as Dr. Meserve just indicated, those economics 
hinge quite a bit on the availability of long-term uranium 
supplies. One of the research programs in which Oak Ridge is 
leading is the extraction of uranium from sea water. Whether 
that will prove to possible economically, I don't know, but 
that work is going to play a significant role in determining 
whether the economics of the overall system are going to 
dictate--I think probably be decades from now--a decision that 
reprocessing will be driven by the need to better use the 
resource or whether there will be sufficient low-cost uranium 
to ensure a future as long as we see that it will be needed. So 
those are major questions.
    Mr. Fleischmann. Thank you, Mr. Secretary.
    Mr. Chairman, I yield back.
    Chairman Hall. The gentleman yields back.
    At this time I recognize--here we go again--Ms. Edwards 
from Maryland.
    Ms. Edwards. Thank you, Mr. Chairman. I am going to take 
that as a compliment.
    And thank you, gentlemen, for your testimony today.
    I want to actually explore this idea of consent-based 
approach to siting because it does seem to me that under--in 
your discussion, General Scowcroft, you say that the first 
requirement in siting is to--obviously to demonstrate adequate 
protection for public health, safety, and environment. We can 
probably all agree with that. But then you go to the next sort 
of threshold which is finding sites where all affected units of 
government, including the host state or tribe regional and 
local authorities--that is a lot of government--and the 
community are willing to accept a facility that has proved. And 
that has proved exceptionally difficult. Using that sort of 
basic criterion, don't you think that in any case, even in a 
next evaluation, that Yucca Mountain would actually fail that 
test?
    General Scowcroft. Well, I think the way it appears at the 
present, yes, because there has been no indication that the 
elements necessary--community and state--can come to an 
agreement. But in a consent process and in a discussion of what 
the benefits might be back and forth, that could change. So I--
and I would not rule it out.
    Ms. Edwards. Thank you very much.
    And then I want to ask, it seems to me, Dr. Lyons, when you 
discussed dry cask storage, that that really is just kind of a 
holding pattern, right? It is not by any stretch of the 
imagination a long-term solution. And I wonder whether we need 
to give a bit of a reality check from the Commission's 
recommendation that somehow in 6 months that the Department of 
Energy is going to be able to come up with that long-term 
solution even given your fine recommendations.
    Mr. Lyons. Well, you are certainly correct, Representative, 
that dry cask storage is not a long-term solution. It is 
certainly not a final solution; it is not a permanent solution. 
We have research programs underway that will help to define how 
long dry cask storage can be safely used and that will be very 
important in determining the time frame that we have for 
evaluating other alternatives. But in the meantime, we have the 
waste confidence decision of the Nuclear Regulatory Commission 
that provides for dry cask storage 60 years beyond the end of 
the existing license for a location. So that gives us 
significant amount of time for research. How much longer than 
60 years it may be possible to extend, that will be the basis 
of our research.
    I also--you questioned whether within six months we would 
have a final path forward. I think the best we can do is 
following the guidance of the BRC, set ourselves on a path 
which they described as certainly consent-based but also 
flexible, also adaptive. Going into both the flexibility and 
the adaptability are going to be questions like how long can 
you use the dry casks? What progress are we making on 
reprocessing technologies? And all those I think will play 
together in finding an eventual path forward for the Nation's 
used nuclear fuel but I think we need to start.
    Ms. Edwards. Thank you. And Chairman----
    Mr. Meserve. May I just----
    Ms. Edwards. Absolutely.
    Mr. Meserve. --add a though here is that we are going to be 
storing this material anyway. I mean we aren't going to have a 
disposal site regardless of what happens to Yucca Mountain that 
can take this fuel, so we are going to have--we have 65,000 
metric tons of this stuff that is sitting out there and it is 
going to be sitting there for many decades. The question that 
we raise, the storage is going to happen. The question is where 
is it going to happen? At the moment, it is all disposed of at 
the sites of the facilities, and we have 10 sites around the 
country where the facility is gone, the plant is gone, the 
people want to use this land, it is valuable land, and what we 
have there are dry casks with a lot of guards standing around 
them watching them. We think that there are benefits in moving 
this material to free up that land; it is an equity 
consideration. It also could save money in that that security 
is expensive and you could consolidate it to save money. And it 
gives you lots of other advantages in terms of pursuing the 
R&D, creates a buffer capacity when you actually have a 
disposal site. You can receive fuel independently of whether a 
disposal site is ready to accept it, repackage it if you need 
to. There is lots of flexibility that it gives you if you were 
to have such a capacity.
    Ms. Edwards. And I have run out of time. At some point, I 
would love to have an answer to the question about the new 
organization that you propose in this environment in which 
there is not a lot of new organizations being proposed and how 
we would make sure that we pay for that. I presume, Mr. 
Chairman, that that would come from the annual fees that we 
collect that seem to go into the general fund.
    And with that, Mr. Chairman, thank you.
    Chairman Hall. And I meant it as a compliment to you. I 
learn more from your questions than I do from a lot of the 
answers. And I will yield you a little more time if you want to 
ask that question.
    Ms. Edwards. Thank you, Mr. Chairman. And if you all could 
respond to that because I do think that the question of a new 
organization and whether--is that because of a lack of 
confidence in the Department of Energy that you need something 
new and independent as an organization? And then it would have 
to be stood up in addition to the array of responsibilities 
that you indicated.
    Mr. Meserve. Our recommendation is not intended to be a 
slap at the Department of Energy. It has succeeded with the 
WIPP site. The challenge we see is that this is going to be a 
long-term problem that has to be dealt with over perhaps 
centuries that you need a continuity and a focus to that, that 
it has to be achieved over time and we think that can be best 
done by a separate organization that has that as its business. 
The Department of Energy, the reality is is that you have 
changes of administrations, changes of officials, you know, in 
a period of perhaps four or eight years and so you don't have 
that continuity of the management and you have the deflected of 
many other issues that they have to deal with. And so I think 
having the necessary focus is one that argues for and justifies 
setting up this entity that has that as its business and it is 
set up to serve that sole function.
    It would require and we do recommend making sure that the 
funds that have been dedicated to go for this function, they 
are available to them independent of an appropriation process.
    Chairman Hall. Do you yield back?
    Ms. Edwards. I do, Mr. Chairman.
    Chairman Hall. I thank you for that.
    At this time I recognize Mr. Benishek, the gentleman from 
Michigan.
    Mr. Benishek. Thank you, Mr. Chairman. I appreciate the 
gentlemen being here on the panel and I have really been 
enjoying all the questions. It is a great--this bipartisan 
participation.
    As you may know, I represent Michigan's first district. We 
have Big Rock Point, which there is--we have a photo of here 
which is one of the decommissioned plants that has actually 
been decommissioned in 1997 and then for the last 15 years has 
been sitting there with these dry casks. And the site 
originally took up about 400 acres and now there is 300 acres 
that have been returned to their natural state, but 
unfortunately, there is these eight casks of 19 feet tall and 
160 tons that don't have a home. And it is costing us millions 
of dollars a year to protect that site. And I know that we 
can't make it disappear but, you know, I am a little frustrated 
over the fact that there is a lot of talk and there doesn't 
seem to be much action. And how soon are we going to get going 
on this plan to site this? I mean are we talking to communities 
already? I mean we seem to have an idea of how to do this, you 
know, the eight points in the--you know, from below up, getting 
everybody involved but I kind of share Mr. Hall's concern that 
we sort of have done this a little bit and, you know, the state 
changed their mind or, you know, political considerations have 
taken place and, you know, my district has got these eight 
casks and there is lots of other places around the country that 
are the same. So what can we do this year, Mr. Meserve?
    Mr. Meserve. Well, I do think that there are some things 
that we can do that are productive. We can start the process--
the Department could start the process of trying to engage with 
communities to try to identify interest in being able to 
proceed. There is a possible barrier that is created by present 
law that--the law that governs Yucca Mountain, the same statute 
provided that there would not be an opportunity to create a 
storage location until there was a license for a disposal site. 
I think the thought on the Congress was--is that people might 
just grab the storage site and not proceed with the disposal 
site which we obviously have to do and that we are afraid it 
would disrupt a program that--leading towards creation of a 
disposal site. And I can't comment on what the thought of the 
Congress was at the time that this provision was put in place 
but I believe that was what was underway.
    So that there are some needs that are squarely within the 
jurisdiction of this body to try to help the very legitimate 
concern that your community feels about having this site with a 
deal that they made to have a nuclear power plant there but not 
to be a long-term site that was holding this fuel with land 
that could well be used for much more valuable purposes.
    Mr. Benishek. It was on the shore of Lake Michigan for 
crying out loud.
    Mr. Lyons, you have an idea it sounds like.
    Mr. Lyons. Well, the point I would like to make, Mr. 
Benishek, to follow on the point that Dr. Meserve made is 
really what he was discussing is why in my remarks I emphasized 
that as we work towards preparing for Congress an 
Administration strategy which is due within 6 months, it can't 
be just the Administration. There is going to have to be close 
cooperation with Congress as we work together towards a package 
that can lead towards a future to address the concerns that you 
are describing. But just as Dr. Meserve described, creating the 
site that you would like us to create is blocked by the Nuclear 
Waste Policy Act and that is just an example of why working 
together is essential.
    Mr. Benishek. Can't we be doing all these things at the 
same time? I mean that is what I am--you know, can't we be 
searching for sites, you know, coming up for licenses, working 
out a plan instead of like doing one thing and then the other? 
I mean I want to know what I can do to make this process go 
forward and I would be happy to try to address this legislation 
that you are talking about. I mean I just need some ideas.
    Mr. Meserve. Well, I think there is a chicken-and-egg 
problem here in that I don't think--it may be very difficult to 
have a community agree to have a storage site without them 
having some confidence whether it is just going to be a storage 
site. It is not going to be a site where this material is going 
to sit indefinitely. And so I think that we do emphasize in one 
of our strong recommendations is that we ought to proceed with 
all speed to try to identify a disposal site, and having that 
program in place we hope would be reassuring to a community 
that would contemplate a storage site and they could have some 
confidence that the material having moved there wasn't going to 
mean it stayed there forever.
    And of course it could be that the storage site is the 
disposal site. We don't foreclose that option, but I think 
there is a lot of flexibility that has to exist and work that 
this entity that we describe would pursue to try to find a 
willing community to be able to take these sites.
    Mr. Benishek. Thank you. I think my time is up but I am 
looking forward in this Committee to be working on legislation 
to try to make this process move faster. Thank you.
    Chairman Hall. I thank you and I thank you for your 
questions.
    The General mentioned community support. I might mention 
community opposition, too, is pretty strong and maybe, Mr. 
Benishek, if you were present in the Senate, we might get that 
spent fuel moved a little bit quicker. You may be thinking 
about that some.
    At this time I recognize the gentlelady from California, 
Ms. Lofgren, for five minutes.
    Ms. Lofgren. Well, thank you, Mr. Chairman. I think this is 
a very important and useful hearing. And as I listen--and I 
guess it is easy for me to say I don't have a nuclear power 
plant in my district, I don't have spent fuel in my district, 
so I am looking not from a district point of view but just what 
is the Nation going to do? And I am mindful as we discuss these 
matters, it is very difficult for us to overtly say we don't 
know anything like what we are going to know later. I mean if 
you think about who won the Nobel Prize in 1912, it will Nils 
Gustaf Dalen, and do you know what he won it for? It was for a 
flash controller so that the gas lights could be turned off at 
night. That was the hot technology 100 years ago. And so to 
think that we have all of the information and technology and 
science that we are going to have to deal with this I think is 
just not likely. It is not likely. And so I am very interested 
in the dry cask storage opportunities. I don't know as much as 
I would like to know about that and it sounds like, Dr. Lyons, 
that maybe none of us knows all that we would like to know 
about that. How resistant is that storage to pilfering? I mean 
what is the nonproliferation implication for that storage mode? 
How long can it safely be contained and have we looked at not 
just the containment but also the geologic conditions of each 
site? Because I think those are critical elements in deciding 
what to do. I think sometimes deciding proactively not to act 
may be the most responsible thing to do. Every time you move 
something, you open up risk to accident, to terrorism and the 
like, so I think those things need to be balanced, the movement 
versus the in place. And I am wondering do we have that kind of 
comprehensive analysis going on on the dry cask storage to let 
us know how much time do we have or can we buy for the 
scientific world to move forward?
    Mr. Lyons. Well, if I could offer several points of view on 
that very excellent question, I might note for starters that 
any dry cask storage site is licensed by the NRC, so questions 
that you addressed such as the security, such as the geologic 
stability, those would all have to be part of the evaluation by 
the NRC before the dry cask storage site was authorized. Of 
course to the extent that is at a reactor site or former 
reactor site, those same questions were asked with regard to--
--
    Ms. Lofgren. If I may, in California we call nuclear 
reactors a way to discover previously undiscovered earthquake 
faults.
    Mr. Lyons. I probably shouldn't comment on that. You raised 
a very, very important point that is very prominent in our 
thinking about the potential risks of handling and re-handling 
used fuel. One of the areas that we are starting in now on a 
program which certainly fits in with some of the BRC 
suggestions is the need to try to move towards a standardized 
cask system. The casks that are in place, for example, your 
colleague's Big Rock Point, are not exactly transportable and 
they would be--at some of the sites, cask configurations have 
been used that will require exactly what you said, of 
repackaging in order to transport. We need to start--and my 
program is starting--a program to work towards standardized 
systems that would look at casks that can be used not only for 
storage but also eventually for transportation and disposal. 
And that minimizes exactly the point you were making. The fewer 
the number of times you handle that fuel, the better off 
everyone is. So that is very much a part of our research 
program.
    Ms. Lofgren. I would just close by--my time is almost out 
but--by noting that given how much more our--we will know in 
100 years than we know today and that the half-life of some of 
the components are in the thousands of years, it seems to me 
not irresponsible to try and preserve this situation for that 
to occur. If we had had the 1912 technology insisted upon at 
that time, we would have a very different society today. I--you 
know, I am just anxious that whatever we do, we don't foreclose 
the options--you know, the idea that we would bury waste 
because it is a problem when in fact it may be an opportunity I 
think in 100 years or in 200 years is very much in my mind as 
we look at this issue and I hope that we can bring that 
perspective to it.
    And Mr. Chairman, my time has expired.
    Chairman Hall. I thank you for your time. I don't think I 
can make another 100 years but we will take a shot at it.
    At this time I recognize Congressman Mo Brooks from Alabama 
for five minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    I appreciate you all being here today with your testimony. 
Out of curiosity, do any of you all know how much this report 
cost the taxpayers of America?
    General Scowcroft. About $10 million to the two-year study.
    Mr. Brooks. All right, thank you. About $10 million. In 
looking at it, Mr. Scowcroft, I am looking at some of your 
testimony. It says--and I am going to quote from it on page 2--
``what we have found is that our Nation's failure to come to 
grips with the nuclear waste issue has proved damaging and 
costly. It will be even more damaging and more costly the 
longer it continues damaging the prospects for maintaining a 
potentially important energy supply option for the future. This 
failure is also costly to utility ratepayers who continue to 
pay for a nuclear waste management solution that is yet to be 
delivered, and to U.S. taxpayers, who face billions in 
liabilities as a result of the failure to meet federal waste 
management commitments.'' And then it adds, ``the need for a 
new strategy is urgent.'' How much time have we already spent 
on Yucca Mountain? Do any of you all know offhand?
    General Scowcroft. Twenty-five years?
    Mr. Meserve. The process that started with Yucca Mountain 
was about 1982 when the Nuclear Waste Policy Act was initially 
passed and--so it was selected by the Congress in 1987.
    Mr. Brooks. So we have been at it basically for a quarter 
of a century.
    General Scowcroft. Um-hum.
    Mr. Brooks. And how many tens of billions of dollars have 
we already invested in Yucca Mountain?
    General Scowcroft. About 15.
    Mr. Brooks. About 15 billion. And how much do you 
anticipate we would have to invest in some other site? Ten, 
fifteen billion starting from scratch? Twenty billion? Thirty?
    General Scowcroft. Could be.
    Mr. Brooks. Could be higher? Going to what I found really 
interesting about your report, it says that the solution to 
this site location problem is to get local communities to 
consent and I was very much enamored with that conclusion but 
on page VIII of the report, it adds, ``finding sites where all 
effective units of government, including the host state or 
tribe, regional and local authorities, and the host community 
are willing to support or at least accept a facility has proved 
exceptionally difficult. And if anything, that is probably an 
understatement. Out of curiosity, are any of you aware of any 
communities that are both environmentally acceptable and secure 
wherein the cities, counties, and states that would be impacted 
have said yes, we would accept a nuclear depository of the 
magnitude that we have discussed in this hearing today?
    General Scowcroft. I would point to the WIPP facility in 
New Mexico.
    Mr. Brooks. Well, is that of the same scope and magnitude 
of what we would need?
    General Scowcroft. We visited the WIPP site and there was 
great enthusiasm for proceeding and expanding the site to 
include storage facilities. So that gave us a great deal of 
optimism.
    Mr. Brooks. So is it your position that the WIPP site in 
New Mexico--would all the communities involved, including the 
state government, would be more than willing to accept itself 
as a depository for all of our nuclear waste that we are 
talking about not going to Yucca. Is that what you are saying?
    General Scowcroft. No, I am not saying that. What I am 
saying is that the WIPP process and the way it is operating now 
I would point to as a success story.
    Mr. Brooks. That is a success story and that is, as I 
understand it, transuranic----
    General Scowcroft. Yes, it is.
    Mr. Brooks. --material?
    General Scowcroft. It is. It is solely defense waste. It is 
not spent fuel.
    Mr. Brooks. Did you all spend any time considering other 
options other than seeking consent which your own report says 
would be very difficult to obtain such as changing the laws 
that enable communities around the country to go to court and 
delay the process almost indefinitely--or in this case years if 
not decades?
    General Scowcroft. I don't know. I don't know whether we 
discussed----
    Mr. Brooks. I mean you are talking about a situation that 
your own report says is urgent.
    General Scowcroft. Yes.
    Mr. Brooks. And we have already spent over $10 billion by 
your own testimony on Yucca Mountain.
    Mr. Meserve. Well, let me--perhaps I should intervene 
here----
    General Scowcroft. Yeah, go ahead.
    Mr. Meserve. --if you would like me to. We have a wide 
array of laws that involve public involvement and I would think 
they would be outraged if we were to somehow circumvent, for 
example, requirements that you have environmental impact 
statements that involve public output which give you 
opportunities for judicial review, have all NRC and regulatory 
requirement process that at its core involves a large amount of 
public involvement with opportunity for review in the courts. 
And so I would seriously question whether a cram-down solution 
would likely to be, first of all, consistent with the way we 
have handled difficult issues in our country over the years.
    Mr. Brooks. Well, outside this one site in New Mexico, are 
you familiar with one place in the country where the consent 
option has worked, where they have come forth?
    Mr. Meserve. Well, I think WIPP is----
    Mr. Brooks. Well, I said with that one exception.
    General Scowcroft. I don't know that we have tried it 
anywhere else.
    Mr. Meserve. Well, let me say that there are--you know, you 
have all kinds of waste that people have to deal with that you 
have hazardous waste, you have low-level waste sites that have 
been difficult to establish sites but there have been some 
successes. And so I wouldn't say that it is necessarily in this 
country impossible to locate a site that may not be necessarily 
at first blush attractive. And what that has to involve is 
providing some incentives of various kinds to the communities, 
which is what happened with WIPP, what happens with many of 
these other sites. And eventually you may get total agreement 
but at least acquiescence. And that is enough. This--no one is 
denying that it is not going to be--that it will be easy to 
have a consent-based process but we have an example, of course, 
in Yucca Mountain where we tried something entirely different 
and it just hasn't worked.
    Mr. Brooks. Well, the Chairman has allowed me a little bit 
of extra time so I will conclude with this last question. I 
agree with you it is wonderful if we can get communities, 
cities, counties, and states to consent for a location that is 
environmentally sound and also secure for national security 
reasons, but what is your Plan B if we don't get that consent?
    General Scowcroft. We don't have a Plan B because we do 
believe that in this process--this is a political process and 
you are the political experts; we are not. But in looking at 
what has worked and what hasn't worked, there is no magic thing 
that you can wave a wand and say everything is perfect, let's 
go. It is fundamentally a political process. What we said in 
our looking at the country and around the world that this 
process is the only one which has allowed political entities to 
move forward. And so we are optimistic that it can work. But it 
is not going to be an immediate solution; it is going to take 
time. It is--and we say it has to be adaptive. As we move 
forward, we have to try different things, different incentives 
for communities to move forward. But this is not alien to you. 
You do it on prisons, you do it on different kinds of--there 
are all kinds of disagreeable things that can be made agreeable 
under certain conditions.
    Mr. Brooks. Well, I thank you for your insight and your 
candor and my time has well expired.
    Mr. Chairman, thank you for the additional time.
    Chairman Hall. Thank you for the good questions. Another 
reason I think that safety review ought to be released.
    I now recognize Mr. Lipinski, the gentleman from Illinois.
    Mr. Lipinski. Thank you, Chairman Hall. Thank you for 
holding this hearing on this important issue. I want to also 
thank the BRC for your work and I know, General Scowcroft, you 
certainly know a lot about politics, not just us up here. You 
certainly do know a lot about it.
    And I am a strong supporter of nuclear energy and I think 
that we have to embrace nuclear energy, but that doesn't mean 
we are ignoring the issues that are involved, so I think that 
this--the BRC's report is very important.
    One thing that I want to raise, I was pleased that the 
BRC's final report recognizes the importance of transportation, 
where transportation is going to come in linking the storage of 
nuclear waste if we were going to be moving the waste from 
where we are storing it onsite right now. One question I would 
want to ask is what would you recommend that this Committee or 
the Transportation Committee--which I also sit on--do or that 
Congress does in order to right now address this issue of 
transportation? Because as I said, I think we need to embrace 
nuclear energy. My State of Illinois certainly has. But I think 
we have to make sure that we are doing all we can to address 
the important issues of waste and what we are going to do with 
that waste. So where does transportation come in and what do 
you think Congress should be doing right now to help address 
that?
    General Scowcroft. Transportation is a very important part 
of all this. When we issued our first draft of our report for 
public comment, we did not have transportation as one of the 
eight elements. The comment showed a deep concern about 
transportation issues and so we gave that more consideration 
than we had in our initial study. It is extremely important. 
The experience we have is very encouraging. The system which, 
again, back to the WIPP facility, it draws its waste from a 
variety of areas around the West. The system has worked very 
well and there has not been a serious accident at all. But what 
we--what they have developed gradually is a process where the 
Western Governors Association has supervised it and they have 
alerted all of the fire departments and so on along the way so 
that if there is an accident, they are prepared to deal with 
the particular aspects of that accident and not say oh, my 
goodness, what do we do now? So that is a process we think is 
one of the first things that needs to be done. And that is to 
educate the states and entities about the process of 
transportation. We think it is a manageable problem.
    Mr. Lipinski. Mr. Meserve, do you have any further comments 
or----
    Mr. Meserve. Well, I--the only thing I would say to 
supplement General Scowcroft's comments is that there are some 
things that need to be done by the relevant regulatory agencies 
to bring the requirements up to date. That is not--that is 
something they have authority to do already. In order to--the 
area--one area where it does seem to me in transportation where 
there are some opportunities for Congressional action is that 
in order to have the kinds of relationships that one would hope 
would have between the federal aspirations for transport and 
the state and local officials is to make sure that you have 
training programs, educational programs, outreach programs that 
enable the interaction of those people so that they become 
knowledgeable and develop the capacities to deal with 
situations that they might confront. That requires funding. And 
there is some funding that has been part of the WIPP facility 
to allow that kind of training to occur and we would recommend 
that similar capacities model basically on what Congress has 
done with regard to funding for transportation for WIPP be 
something that be embodied for dealing with affected local and 
state officials that will have to be a part of a process of a 
major transport campaign.
    The initial problem is you don't know where the stuff is 
going of course until you have a disposal site----
    Mr. Lipinski. Um-hum.
    Mr. Meserve. --or a storage facility, but you should know 
where it is coming from. So you have some communities you know 
you have to be dealing with. And so you can start this process 
now and it is going to take time.
    Mr. Lipinski. Okay, thank you. And as a lot of good 
questions asked earlier, I know Mrs. Biggert especially raised 
the advanced fuel cycles R&D going on and it was brought up 
about the great work going on at Argon and hopefully we can 
continue to--when we talk about funding properly--fund that 
also.
    I yield back.
    Chairman Hall. And I thank you.
    At this time, I recognize the gentleman from California, 
Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    General and Dr. Meserve, you mentioned in your joint 
testimony that deep geological disposal is the scientific-
preferred approach and this has been reached by every expert 
panel that has looked into this issue and every other country 
pursuing a nuclear waste management approach. Let me remind 
everyone that in 1957, which was before this Science Committee 
ever existed, the National Academy of Sciences recommended that 
deep burial of nuclear waste, that that would be the way we 
solve this problem. In 1982, the Nuclear Waste Policy Act made 
that national policy. Now, those dates may seem--General, you 
are a little bit older than I am and I am----
    General Scowcroft. A lot.
    Mr. Rohrabacher. --getting to be older myself. Those don't 
seem so long ago to you but in fact that is a long time ago. 
And we are still talking about putting waste in a hole. That is 
a--we are talking 30, 40 years ago and yet we have this Blue 
Ribbon panel to tell us something that was a solution 30 or 40 
years ago. Haven't we progressed? Hasn't there been new 
technology? Well, there has been. Secretary Chu mentioned and 
this Blue Ribbon Commission and of course he said that in 
referring to this, we realize that we know a lot more today 
than we did 25 or 30 years ago. We will be assembling a Blue 
Ribbon panel to look at this issue. We are looking at reactors 
that have a high energy neuron spectrum that can actually allow 
you to burn down the long-lived waste. These are fast neutron 
reactors. We have spent $15 billion, you want to spend billions 
of dollars more in order to develop a plan of putting this in a 
hole and we don't even know if we can get anybody to agree to 
allow the hole to be near their community, yet we now have 
companies that are capable of building these fast neutron 
design reactors, Toshiba's 4S, GE's PRISM reactor, General 
Atomics' EM2 reactor. All of these can take the waste that we 
are talking about and burn it as fuel. Up to 97 percent of it 
will be burned as part of the process and eliminate the need 
for spending all of this money putting things in holes. Now, 
how much money have we spent in the last year on nuclear power 
research? I guess that should go to you, Mr. Secretary.
    Mr. Lyons. Yes, we have a program on reactor technologies 
and that is in the last year in the order of 150 million.
    Mr. Rohrabacher. All right. How much did we spend on 
nuclear energy research?
    Mr. Lyons. Nuclear energy research? Our total budget is of 
the order of 800 million and about half of that is research.
    Mr. Rohrabacher. Now, I have had meetings with people who 
told me that the biggest stumbling block--and they could have 
been building these reactors which would have eliminated this 
problem--that the biggest stumbling block is the first $100 
million because they have to have the blueprints and that is a 
risk factor in putting together the entire project. And it 
costs about $100 million. So we have spent billions of dollars 
figuring out how to put something in a hole but our government 
hasn't been willing to put out that $100 million that would 
permit the private sector to spend the money necessary to solve 
this problem.
    You know, to say that this is frustrating on this side of 
the questions is to put it mildly and there have been people 
debating it--I have been advocating this and I know these 
companies that I have been talking to for at least five years, 
this is not a secret that we can burn 97 percent of the waste 
instead of--as the General pointed out--1 percent of the waste 
which our current system does. You know, we are talking about 
transportation, all these issues about transportation of the 
waste, that won't even be a problem if we burn up 97 percent of 
it. It will be a miniscule problem. Yet we can't get ourselves 
and the Department of Energy to put out the money for that one 
roadblock. Now, if they told me that--if these companies have 
told me that that $100 million is what is a stumbling block to 
developing this revolutionary new approach which would solve 
this problem, well, then I am sure they have told you. So why 
haven't we financed that?
    Mr. Lyons. Again, Mr. Rohrabacher, we do have programs 
looking at advanced concepts. You have described a number of 
advanced concepts. Some of them require at least several 
miracles before they will be able to be fielded. Some of the 
suggestions you have made involve advanced materials that 
simply don't exist.
    Mr. Rohrabacher. Yeah, one of the miracles is getting the 
bureaucracy to get off their butt. That is one of the miracles 
that we are going to have to have to have these reactors. Now, 
we are going to have study after study, Blue Ribbon Commission 
after Blue Ribbon Commission and we are going to end up talking 
about spending $15 billion putting nuclear waste into a hole 
which we could have done 15, 20, 40 years ago. This is 
upsetting.
    The bureaucracy, Mr. Chairman, is getting in the way of us 
moving forward. Those companies have not given me that word, 
that they have to have miracles in order to build it. They have 
told me they are ready to build now if they could get over this 
$100 million hump. I suggest, Mr. Chairman, that we make this a 
priority in this country and quit pouring money down a rat hole 
that we don't need to have. Thank you very much, Mr. Chairman.
    Chairman Hall. Do you yield back?
    Mr. Rohrabacher. Yes, I do.
    Chairman Hall. And I thank you.
    At this time, I recognize Dr. Harris, who himself as a 
Subcommittee Chairman has received publicity recently by simply 
insisting on the rules being carried out and I admire you for 
that. I was proud to support you.
    Dr. Harris. Well, thank you, Mr.----
    Chairman Hall. I recognize you for five minutes.
    Dr. Harris. Thank you very much, Mr. Chairman. Let me just 
concentrate on one aspect of the report and that is this idea 
of the consolidated storage facilities because you make a 
recommendation that one or more consolidated storage 
facilities--ideally, how many storage facilities--consolidated 
storage facilities would it take to handle the continual flow 
of nuclear waste in the country? Just because it says one or 
more but if it becomes one then kind of morph into a 
repository. How many do you envision?
    Mr. Meserve. There is no technical limit that would 
constrain the volume of waste that was stored at a facility. It 
would depend on the particulars of the situation, but we 
certainly would have locations in the United States where all 
of the material could be stored. I think that the idea of 
possibly having multiple storage sites is to reflect some of 
the transportation issues. It might be nice to have one in the 
East, one in the West, possibly some equity issues. There may 
be a community that doesn't want to have all the materials in 
its--at its storage site. So that there are--there may be--as 
you point out, there may be some reasons why you would want to 
just have one but we didn't see the reason necessarily to 
foreclose the possibility that there could be several.
    Dr. Harris. Now, but the structure you have set up and the 
recommendation is that what we ought to do is we ought to go 
ahead with this consolidation facility but in a parallel course 
go ahead with a repository. But if you are only going to go 
ahead with one consolidation facility--and let us bring to mind 
the history of the handling of nuclear waste--we have gone into 
communities and said take our nuclear--take a nuclear reactor, 
don't worry, the waste won't be there forever because we will 
handle it. The Federal Government will come in. Don't worry, 
the Federal Government will handle it. We never have handled 
it. Now, we are going to come into a community and say let's 
build a new facility; this one we are going to call a 
consolidated waste facility and don't worry, we are going to--
it is not going to be there forever; it is going to go to this 
repository. Given the track record, how in the world are we 
going to convince the community to build a consolidation 
facility? And it begs the question, why don't you just go to a 
repository? I mean it seems that what you are building is a 
functional de facto--except for the geology--a repository 
potentially because that is--let's face it, that is basically 
what our old nuclear plants have become. They have become de 
facto repositories.
    Mr. Meserve. I think you are quite correct. There will be a 
challenge in establishing a storage facility in a situation 
where the people don't believe that they will inevitably be a 
disposal facility. And that is why I think these things have to 
go in parallel so that there is--for those communities that are 
concerned about the long-term possibility that the material 
would be there effectively forever would have some assurance 
that the material could move. It will be easier in terms of 
licensing to establish a storage facility than a disposal 
facility. That could move forward faster but there will 
definitely be a challenge in dealing with the opposition. Of 
course, the community that was interested in having a disposal 
facility might well be very happy to be a storage facility in 
the interim.
    Dr. Harris. And that is exactly my point, that absent what 
my colleague from Alabama suggested, two recommendations on how 
to deal with this issue of not-in-my-backyard because I will 
tell you, I can't imagine a community saying, you know, sure, 
you know, build the disposal facility. We don't want the 
repository because, again, the record of the Federal Government 
is we have turned even just reactors into repositories long-
term. So why the hesitance to actually make recommendations--I 
am looking through here--as to how we can actually make the 
process work faster and better with regards to licensed--
because let's face it, the hold up on the licensing has always 
been local issues. That is basically it. The other ones are, 
you know, are solvable. I don't see anything in here other than 
to just say well, make sure the communities approve it. 
Anything else that will move this forward? Is there--am I 
missing something? Is there something here that says this is a 
strategy to get these into communities?
    General Scowcroft. Well, I think one of the--WIPP we have 
used to great advantage as an example.
    Dr. Harris. And WIPP is a repository, is that correct?
    General Scowcroft. It is a repository.
    Dr. Harris. Okay.
    General Scowcroft. It is a repository. And it is working 
very well and the local communities around the repository have 
actually gone out and leased land which they hope to be used 
for a storage facility because they would like to expand their 
participation in this program. Now, that is one community but 
it doesn't take many communities to deal with this whole thing.
    Dr. Harris. And one final question if I might, Mr. 
Chairman. You suggest that there should be some governmental 
chartered organization to kind of look over all these things 
and I assume you mean to look over the contained--I am sorry--
consolidated storage facilities as well. Have--since the 
private sector runs most of the power plants themselves, has 
the option been considered of letting the private sector 
perhaps build and run and just get license to have a storage 
facility--consolidated storage facility? Does it necessarily 
have to be government-run or could it just be government-
licensed, let the private sector deal with the issue?
    General Scowcroft. It doesn't necessarily have to be 
government-run. It was our conclusion that a federal 
corporation was the best compromise because we think that the 
whole issue of nuclear material has a national security aspect 
and a proliferation aspect to it that means that the government 
has to be more involved than simply turning it over to private 
industry.
    Dr. Harris. Okay. Thank you very much, Mr. Chairman.
    Chairman Hall. I thank you and recognize Ms. Johnson if she 
wants to make any type of a final statement--not final but for 
today. I don't like this finality idea. I don't even like to 
hear an airport considered a terminal. Go ahead now.
    Ms. Johnson. Thank you, Mr. Chairman.
    I simply want to once again thank all of you for the work 
and time that you put into these studies and to simply share 
with you an article that came out recently that reported 
several of the candidates for President. Former Speaker 
Gingrich said ``any deal that is reached must be agreed by the 
local, state, and federal officials and founded on sound 
science.'' Former Governor Romney, ``no state should be forced 
to accept the Nation's nuclear waste against its will.'' And 
Congressman Paul says, ``as a Member of Congress, I have always 
voted against forcing people in Nevada to use Yucca Mountain as 
a nuclear waste storage site. As President, I will work with 
the Nevada officials to ensure that whatever is done with Yucca 
Mountain reflects the wishes of the people of Nevada.'' Now, I 
only quote that because all these people want to be our next 
President because it reinforces what your study shows, that it 
has got to start bottom up rather than top down.
    So thank you very much. Thanks to all of you for being here 
this morning.
    Ms. Edwards. Mr. Chairman?
    Chairman Hall. Who seeks recognition? The gentlelady.
    Ms. Edwards. I would just ask on the record there have been 
a number of issues raised during this hearing and particularly 
by Mr. Rohrabacher that I would be interested in the Committee 
exploring related to the newer technologies because I know I 
don't know a lot about them but would have some questions. And 
I would hope that that would be something that we could 
explore.
    Chairman Hall. I will provide that, yes.
    Ms. Edwards. Thank you.
    Chairman Hall. And I thank you for it. That is a very good 
suggestion.
    Questions are completed and I want to thank the witnesses 
very much for your very valuable testimony and for the time it 
took for you to get here, the time it took you to get prepared 
for here and the time you have given us today. But all of this 
is of record. We have had a court reporter taking over 
everything. And members and those who assist us will be reading 
that. It will be of great support to us in the future.
    And for those of you, you three who have come to the 
defense of the Nation when we needed you and the national 
defense, you helped with the economic recovery, you have given 
us your time today, you are truly Blue Ribbon citizens and we 
thank you for your time.
    At this time, Members of the Committee may have additional 
questions for any one of you and they may do that by mail. If 
we do, we hope you will answer it timely, maybe within a couple 
of weeks if you can. The record will remain open for at least 
two weeks for additional comments from Members.
    And all of the witnesses are excused and are thanked very 
much for your time. And this hearing is adjourned.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              



                   Answers to Post-Hearing Questions

Responses by Lieutenant General Brent Scowcroft (Ret.), Co-Chairman, 
        and
The Honorable Richard Meserve, Commissioner,
Blue Ribbon Commission on America's Nuclear Future
[GRAPHIC] [TIFF OMITTED] T2656.034

[GRAPHIC] [TIFF OMITTED] T2656.035

[GRAPHIC] [TIFF OMITTED] T2656.036

[GRAPHIC] [TIFF OMITTED] T2656.037

[GRAPHIC] [TIFF OMITTED] T2656.038

[GRAPHIC] [TIFF OMITTED] T2656.039

[GRAPHIC] [TIFF OMITTED] T2656.040

[GRAPHIC] [TIFF OMITTED] T2656.041

[GRAPHIC] [TIFF OMITTED] T2656.042

Responses by The Honorable Pete Lyons,
Assistant Secretary of Nuclear Energy, Department of Energy

[GRAPHIC] [TIFF OMITTED] T2656.063

[GRAPHIC] [TIFF OMITTED] T2656.064

[GRAPHIC] [TIFF OMITTED] T2656.065

[GRAPHIC] [TIFF OMITTED] T2656.066

[GRAPHIC] [TIFF OMITTED] T2656.067

[GRAPHIC] [TIFF OMITTED] T2656.068

[GRAPHIC] [TIFF OMITTED] T2656.069

[GRAPHIC] [TIFF OMITTED] T2656.070

[GRAPHIC] [TIFF OMITTED] T2656.071

[GRAPHIC] [TIFF OMITTED] T2656.072

[GRAPHIC] [TIFF OMITTED] T2656.073

[GRAPHIC] [TIFF OMITTED] T2656.074

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
